afl-8039
•t, J.3.

IN THE
i ujy t ?
SUPREME COURT OF THE UNITED STATES

2' £ OF THE CL ; .

EARL MCBRIDE, JR - PETITIONER
VS.
LORIE DAVIS, DRI. - RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

EARL MCBRIDE ,JR
PETITIONERPR0 se
TDCJ-ID #00315371 RAMSEY UNIT
1100 FM 655, ROSHARON, TEXAS 77583

i

QUESTIONS PRESENTED FOR REVIEW

Does United States Postal Service Form 3811 Domestic Certified
Returned Receipts demonstrating properly and timely filing of State and
Federal Habeas Petitions meet the 28 U.S.C. SECTION 2244
evidentiary standard to afford equitable tolling to prevent denial of
habeas relief on the basis of procedural grounds?
Did a vioaltion of the Due Process Clause occurr when State Parole
Baord changed parole certification achievement status without
conducting a parole revocation hearing process?

LIST OF PARTIES
All parties appear in the Caption on the cover Page. A list of all parties to
the proceedings in the courts whose judgment is the subject ofthe PETITION FOR
WRIT OF CERTIORARI is as follows;
Petitioner, Earl McBride Jr., is a Texas state prisoner incarcerated at the
Ramsey Unit ofthe Texas Departement of Criminal Justice Institutional Division
(TDCJ-ID). Petition is herein after referred to as "McBride".
Respondent Lorie Davis is Director of TDCJ-ID. Respondent is herein after
referred to as the Respondent. TDCJ-ID busines address is TDCJ -ID -Parole
Board/Division P.O. Box 99, Huntsville Texas 77340

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.... 1
2

STATEMENT OF THE CASE

3

COURT PROCEEDINGS BELOW
REASONS FOR THE WRIT

4

CONCLUSION

6
INDEX OF APPENDICES

APPENDIX A - Decisions of the UNITED STATES COURT OF
APPEALS - FIFTH CURCUIT.
APPENDIX B - RULE 5 6 Federal Rules of Civil Procedure.

TABLE OF AUTHORITIES CITED
Anderson v. Liberty Lobby, Inc., All U.S. 242

5,

Morrissey v. Brewer , 408U.S.477

4,5

Constitutional Provisions:
Section 1 Clause 3 Fourteenth Amendment United States Constitution
Statutes:
28 U.S.C. SECTION 1254
28 U.S.C. SECTION 2244
28 U.S.C. SECTION2253

1
1,2,3,5,6
1

RULES:
Rule 56 Federal Rules Civil Procedure

2,4,5,6

No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to review the
judgment below.
OPINIONS BELOW
The TWO OPINIONS of the United States Court of Appeals appear at
APPENDIX A to this PETITION. The FIRST OPINION is unreported but was
published as McBride v. Davis, 722 F.App’x 366, 367 (5th Cir 2018). The
SECOND OPINIION is unpublished.
JURISDICTION
The United States Court of Appeals for the Fifth Circuit issued its Final
Opinion in this case on July 7th,2020. Petitioner filed timely MOTION FOR
EXTENSION OF TIME TO FILE PETITION FOR REHEARING which was
denied without any consideration for the incremental operations limiting access to
the prison law library due a widely reported COVID-19 outbreak at TDCJ-ID
Ramsey Unit. Petitioner received no acknowledgment of his Petition For
Rehearing. This COURT’S Jurisdiction is invoked under 28 U.S.C SECTION
1254(1).
CONSTITUIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the FOURTEENTH AMENDMENT, SECTION 1
Clause 3 OF THE UNITED STATES CONSTITUTION which provides;
“Nor shall any State deprive any person of life , liberty or property
without due process of law”...
This case also involves 28 U.S.C. SECTION(S) 2253(c)(2) AND 2244:

l

SECTION 2253 (C ) (2) “ A certificate of appealability may iissue...
only if the applicant has made a substantial showing of the denial of a
constitutional right.”
SECTION 2244 (d)(1) A 1-year period of limitation shall apply to an
application for writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. (2) The time during which a properly filed
application for State post-conviction or other collateral review with respect
to the pertinent judgment or claim is pending shall not be counted toward
and period of limitation under this subsection.
This case also involves RULE 56 of Federal Rules of Civil Procedure which
appears in APPENDIX b p. 56.1-3,

STATEMENT OF THE CASE
Facts Material To Consideration Of Questions Presented
1 st Question - Relevant Facts:
l;
. 4-

; BOARD OF PARDONS AND PAROLES
MINUTES
■4

NAME
MO

5
CZ
ZJ

fftc Brute £qrl 'Sr

DATE
DAY YEAR

rm
zo

W

TDC

BOARD ACTION
/

215^1 \

SED

021^1^1

REASON AND /OR INSTRUCTIONS

mposf stsPAi^n wm inMff

jg!3P0iMS

•rffPRBffbuSLYBSfKro

vn

PAROLE PLAN OF
APPROVED, iSSUcD PAROLE

■■am

g).£)\5P. V/Q- (ria^'Lsb

CFBTIFICATF

1

t

-f---- :

Texas state prisoner Earl McBride achieved “parole status on May 14 20.14
after statutory completion of Texas “Extraordinary Vote Requirement Process”
conducted in compliance with applicable Texas Administrative Policy , BPP
Directive SECT. 145.301, and his PAROLE CERTIFICATE ISSUED May
2

- /

30,2014 as shown above. McBride was informed by a Board employee on August
6th,2014 that his “parole status achievement” had been changed without a
revocation hearing process.

2nd Question - Relevant Facts:
SENDER: COMPLETE THIS SECTION

COMPLETE THIS SECTION ON DELIVERY

* Sl7fe&.

■ Complete items 1,2. and 3. Also complete
item 4 if Restricted Delivery is desired.
■ Print your name and address on the reverse
so that we can return the card to you.
■ Attach this card to the back of the mailpiece,
or on the front if space permits.

□ Agent
□ Addressee
B. Re^^3p$rj^rirJe£li/6«Alj? SO B. Date of Delivery

X

D. Is delivery 4
If YES, gf

1. Article Addressed to:

CjW

V..

— (LA

item 1? □ Yes

□ No

3. Service ^
Ea^Certffet
□ Reglst
-Receipt for Merchandise
vi»
Insured Mair'^XrC.O.D.

AizAg-AkSl

4. R&tricted Delivery? {Extra Fee)
2. Article Number
(Transfer from service label)
PS Form 3811, February 2004

!

□ Yes
■i

700=5 EflEO 000E TS54 TEDS
Domestic Return Receipt

102595-02-‘M-1iw8&

On June 22, 2015 McBride properly filed State Habeas Corpus Application.
On July 6,2015 McBride received Notice by way of USPS FORM 3811
DOMESTICE RETURN RECIEPT (GREEN CARD) that his application was
“Post Marked June 30,2015 - Stamped and signed as received by the State Court
Clerk’s Office as shown above.
On June 16, 2016 Texas Court of Criminal Appeals denied McBride’s State
Habeas Corpus Application. (Pursuant to 28 U.S.C. SECTION 2244 Statutory
Tolling - 39 days remained)!
On July 1, 2016 exactly 16 days later McBride [timely] filed his SECTION
2254 Habeas Petition with the Federal District Court as shown above.

3

COURT PROCEEDINGS BELOW
On May 14,2018 the United States Court of Appeals ORDERED Remand
Proceedings to determine validity of “McBride’s claim of parole certification
status” stating;
This Court granted a Certificate of Appealability as to “whether the District
Court correctly dismissed [McBride’s] claims as predicated on a denial,
rather than a revocation of parole ... Denial parole and revocation of parole
are subject to different constitutional standards, see Morrissey v.
Brewer,408 U.S. 477, 482-84 (1972)... The District Court did not analyze
McBride’s claim under the standard applicable to revocation of parole and
the limited record does not conclusively establishes McBride’s parole
status.. .Accordingly, we conclude that the District Court misconstrued the
basis of McBride’s constitutional claims... p2”

On Remand the District Court Ordered Respondent to file Summary Judgment
Motion. McBride properly filed opposing factual and documental material
presentation and provided additional documents and Affidavits directly related to
his claims in his Rule 56 Responses to Summary Judgment. On September
10,2019 the district court granted the Motion for Summary Judgment and enters
final judgment incorrectly stating “ because McBride filed his [federal] petition
too late “.
On October 4, 2019 McBride file REQUES TO FILE APPLICATION FOR
COA. On July 7, 2020 the Second Panel of the United States Court of Appeals
denied COA without allowing the filing of Brief to explain argument in support
of application for COA.

REASONS FOR GRANTING THIS PETITION
A.

CONFLICTS WITH SUPREME COURT DECISIONS,
ALL OTHER CIRCUIT COURT DECISIONS AND
EVEN PRIOR FIFTH CIRCUIT DECISIONS

(1) There is a direct conflict with the Supreme Court's "due process of law"
principle announced in Morrissey v. Brewer 408 U.S. 471, 482-84 (1972). The
Fifth Circuit panel has delivered a baseless opinion denying COA without allowing
4

briefing where “perspicuous change in “parole achievement status has occurred
without due process of a revocation hearing”. Indisputable evidence in the form of
Parole Board records of ’’parole certification achievement status” and “subsequent
change without revocation hearing” clearly and concisely demonstrates “a
substantial showing of denial of a constitutional right. Morrissey 408 U.S. 482.
(2) Even under the AEDPA standard of heighten scrutiny the Decision is in
direct conflict with the tolling clause of SECTION 2244's one-year statute of
limitations period; In light of USPS Form 3811 Certified Return Receipts with
State and federal court clerk offices showing timely filing of State and Federal
Habeas Petitions. The Decision also conflicts with the Supreme Court principle in
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252 (1986). In a Federal Rules of
Civil Procedure , Rule 56 Summary Judgment proceedings the non-moving
indisputable evidence in the form of U.S. Postal Service Form 3811 Certified
Return Receipt “ undeniably showing timely filing of federal habeas petition
clearly demonstrates incorrectness of the district court’s denial of relief based on
procedural grounds. In this case, no evidence exists to support the grant of a
“time-barred affirmative (statute of limitations) defense” pursuit to the AEDPA
or Rule 56 of Federal Rule of Civil Procedure.

B. IMPORTANCE OF QUESTIONS PRESENTED
This case presents a nationally important question : whether a State parole
Board can change parole certification achievement status without providing
revocation hearing process? (i.e., Does the Supreme Court due process principle
announced in Morressey 480 U. S. 471, 482 still have precedent?).
Every Circuit and the Supreme Court recognizes and accepts post marked
dated, stamped and signed for United States Postal Service Form 3811 Certified
Domestic Certified Return Receipts (Green Cards) as valid proof of service
establishing the date of delivery and to whom mail was delivered pursuit to
Federal Rules of Civil Procedure, Rules 5, 6 and 56.

C. EXPLANATION OF EXTREME DEPARTURE:
UNMISTAKABLE NEED FOR SUPREME COURT AUTHORITY
5

Observable extreme departure from prior Supreme Court holdings and authority
have occurred in this case. Even though, objectively discemable evidence in the
form of Parole Board’s Records unquestionably demonstrates that McBride
achieved parole certification status; The decision shows clear disregard by the
courts below for Supreme Court announced and established principle long
adopted in every circuit. Change in parole certification status without affording
revocation hearing is violation of due process clause. The Fifth Circuit’s Decision
in this case runs afoul with Supreme Court authority.
Again, objectively discemable evidence in form of United States Postal
Service FORM 3811 Certified Mail Return Receipt couppled with State and
Federal Court Clerk records showing timely filing dates of habeas petitions meets
non-movant's summary judgment and Section 2244 0) (l) evidentiary standard to
defeat bare allegations. The decision below disregards Federal Rules of Civil
Procedure Rule 56 ( c ) and 28 U.S.C. Section 2244 tolling Clause; Makes an
extreme departure from well established Supreme Court Principle: "Court must
take all the facts and evidence in light most favorable to the non-moving party
where there exist no presented evidence to support judgment as a matter of law"

CONCLUSION
In view of the above, a Petition For Writ of Certiorari should be granted in
the case.

Respectfully; submitted,
ai

cBride Jr.,

Petitioner
October 6 ,2020

6

